/■

>:
,^

;

/

t*

JJ.

No.

ORIGINAL
Supreme Court. U.S.
FILED

AUG 0 5 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
vs.

Cff/

btraotT

A ^i//lici^l Co(ipo£ATiOr\ — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

[jnneo ^Tat^ (Wf of Appe*/s

Cuic^tj'

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Ejmth \ftlooD5eftgy
(Your Name)

?>2>3 6}lAD$rz>njg(Address)

Derdoif /p
(City, State, Zip Code)

(3i3>) ^,15-11-79(Phone Number)

QUESTION(S) PRESENTED
1. It is against public policy and the United States Constitution to permit the bankruptcy
court to discharge in bankruptcy the City of Detroit’s mandatory obligation to pay just
compensation after taking private property via eminent domain.

2. The fifth amendment of the United States Constitution bars the bankruptcy court from
disallowing or discharging the City of Detroit’s constitutional obligation to pay Petitioner
just compensation after the City of Detroit confiscated Petitioner’s real property under
color of the Michigan eminent domain statute.

3. After the bankruptcy court determined that it did not have jurisdiction over Petitioner’s
claim for payment of just compensation, the bankruptcy court’s subsequent bankruptcy
orders disallowing Petitioner’s claim for payment of just compensation violated the
United States Constitution fifth amendment due process clause and fifth amendment
mandate requiring that the City of Detroit pay just compensation.

4. It is against public policy, the Michigan eminent domain statute, and the 5th
amendment of the United States Constitution for the bankruptcy court to shift to the
Petitioner the state’s (City of Detroit) mandatory duty and obligation to go forward with
obtaining a final order authorizing the taking of Petitioner’s real property via eminent
domain.

5. The bankruptcy power to disallow a claim does not supersede the 5th amendment
requirement that the City of Detroit pay Petitioner just compensation

LUST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

Filed/Location

Type/Status

84-402901-CH

10/31/1984
Civil Division

(CH) - Housing and
Real Estate
Conversion (Final)

84-433299-AV

11/21/1984
Civil Division

(AV) - Civil Appeals
Conversion (Final)

85-507238-AV

03/20/1985
Civil Division

(AV) - Civil Appeals
Conversion (Final)

85-507406-AV

03/21/1985
Civil Division

(AV) - Civil Appeals
Conversion (Final)

04/11/1985
Civil Division

(CZ) - General Civil
Conversion (Final)

85-531651-CZ

12/03/1985
Civil Division

(CZ) - General Civil
Conversion (Final)

86-622688-AV

08/25/1986
Civil Division

(AV) - Civil Appeals
Conversion (Final)

Case Number

85-509485-CZ

Style

WOODBERRY v MICH CONSOLIDATED

16-005862-NI

Woodberry, Edith v KM Food Services,
LLC , et al.

05/09/2016
Civil Division

(Nl) - Personal Injury,
Auto Negligence
Final

19-005182-CZ

City of Detroit, a Michigan Municipal
Corporation v Edith Woodberry

04/10/2019
Civil Division

(CZ) - General Civil
Final

05-522129-CC

City of Detroit, a Michigan Municipal
Corporation v Edith Wooberry, James
Fuller, Benjamin Sobeloff, etc.

2005
Civil Division

(CC) - General Civil
Not Final

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Mumaw v Mumaw, 124 Mich App 114, 333 NW2d 599 (1983).

b

STATUTES AND RULES
MCL 213 - The Uniform Condemnation Procedures Act
(“UCPA”) - provides standards for an agency’s acquisition of
land, the conducting of condemnation actions, and the determination
of just compensation.
MCLS § 213.52 - provides that if property is to be acquired by an
agency through the exercise of its power of eminent domain, the
agency should commence a condemnation action for that purpose.
MCR 2.517 - a court trying a case without a jury must make special findings of fact and
state its conclusions of law thereon.
OTHER
MCLS Const. Art. X, § 2. - The Michigan Constitution provides that
private property should not be taken for public use without just
compensation being first made or secured in a manner prescribed
by law.

fa

-TABLE-OF-CONTENTS
1

OPINIONS BELOW
JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
op-pyL

APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

e

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

__ to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
JXf is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

__to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
9-07^/
was
t
[ ] No petition for rehearing was timely filed in my case.
A timely petition for rehearing wais denied bv the United States Court of
Appeals on the following date: p\k'i 7.t 7.t> 9-)_____ , and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______ _
(date)
(date) on
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-1-

CONSTITUTIONAL AND STATUTORY PROVISIONS

(JSCS Const. Amend. 5. - The Fifth Amendment to the U.S. Constitution states
that private property should not be taken for public use, without just
compensation.

USCS Const. Amend. 5 - The Due Process clause of the Fifth Amendment - says to
the federal government that no one shall be "deprived of life, liberty or property
without due process of law."
USCS Const. Amend. 14 - The Due Process Clause of the Fourteenth Amendment The Fourteenth Amendment, ratified in 1868, uses the same eleven words, called the
Due Process Clause, to describe a legal obligation of all states. It is exactly like a
similar provision in the Fifth Amendment, which only restricts the federal government. It
states that no person shall be “deprived of life, liberty, or property without due
process of law.” Usually, “due process” refers to fair procedures.

MCLS Const. Art. X, § 2. - The Michigan Constitution provides that
private property should not be taken for public use without just
compensation being first made or secured in a manner prescribed

by law.

STATEMENT OF THE CASE
The City of Detroit commenced several separate eminent domain actions in the
Wayne County Michigan Circuit Court against Petitioner Edith Woodberry (“Petitioner”)
and various other defendants to take, via eminent domain, Petitioner’s 18 unit
apartment building (“Subject Property”). Case no. 05-522129 CC was the only case that
ultimately proceeded to a Judgment after three years of litigation.
All of the earlier eminent domain actions were dismissed for procedural
violations. In one instance, the City of Detroit’s eminent domain action was dismissed
after the Michigan Court of Appeals held that the decision to assign all eminent domain
cases in a geographical area to one Wayne County Circuit Court Judge for adjudication
was improper. Upon dismissal, the Wayne County Circuit Court denied the City of
Detroit’s motion to require the defendants return money paid.
After the dismissal, the City of Detroit then filed, de novo, eminent domain case
no. 05-522129 CC to acquire the Subject Property. In 2008, the Wayne County Circuit
Court Judge entered a Judgment that awarded the City of Detroit title to the Subject
Property and awarded the Petitioner and eleven of the co-defendants a joint just
compensation award.1 Petitioner and co-defendants were barred from appealing the
Judgment as a matter of right because the Judgment expressly stated that the
Judgment was not a final order.

1 Earlier in the case 05-522129 CC, the Wayne County Circuit Court judge awarded the Fuller
co-defendants approximately $250,000 just compensation for their one half interest in the Subject
Property. This is noteworthy because the Fuller’s one half just compensation is approximately three times
more than the approximate $87,000 the court jointly awarded Petitioner and the remaining co-defendants
for the remaining one half interest. Even if Petitioner actually received the approximate $87,000, that
amount is not just compensation because it does not represent one half the value of the Subject Property.
This is one of the issues that would have been raised on appeal if a final judgment was entered.

-H-

No just compensation awarded in the 05-522129 CC eminent domain action was
ever paid to Petitioner and the co-defendants. The 2008 Judgment, entered in lump
sum form, did not specify how much just compensation was awarded to Petitioner and
each individual co-defendant.
The Wayne County Circuit Court denied the Petitioner and the co-defendant’s
motion to apportion the just compensation award, which, de facto, left actual payment of
any just compensation under case no. 05-522129 CC to the Petitioner and the
co-defendants unpaid.
The 2008 Judgment also ordered that an unspecified amount be deducted from
the just compensation award to pay for rent, utilities, taxes, etc. that accrued during the
three years the eminent domain action was pending before the Wayne County Circuit
Court.
Despite the fact that the City of Detroit did not obtain a final order from the
Wayne County Circuit Court judge, the City of Detroit forcibly evicted Petitioner (and the
co-defendants) from the Subject Property. Petitioner and the co-defendants were unable
to appeal the unlawful eviction and the City of Detroit’s illegal “taking” of their homes
because the Wayne County Circuit judge did not enter a final order.
The City of Detroit filed Chapter 9 bankruptcy. The City of Detroit did not list
Petitioner as a creditor in its Chapter 9 application. After the City of Detroit completed
Chapter 9 bankruptcy proceedings, the City of Detroit notified Petitioner (and
co-defendants) that if Petitioner (they) had a claim against the City of Detroit, Petitioner
(they) should file a claim in the bankruptcy.

-6'

Petitioner filed a claim which the City of Detroit moved to disallow. Bankruptcy
Judge Stephen Rhodes did not sustain the City of Detroit’s petition to disallow the
claims. Instead, without making any determination regarding the validity of Petitioner’s
claim for payment of just compensation, Judge Rhodes determined that the bankruptcy
court could not decide Petitioner’s claim because the 2008 Judgment requiring the City
of Detroit to pay just compensation was not a final order and that Petitioner and the
co-defendants were entitled to an appeal as a matter of right. Judge Rhodes retired
shortly after making this determination. Judge Rhodes’ order was never quashed or set
aside.
Rather than appeal Judge Rhodes’ order or obtain a final order in the Wayne
County Circuit Court, the City of Detroit petitioned the bankruptcy court a second time
for entry of an order disallowing the Petitioner’s claim for just compensation.2
In the new petition, the City of Detroit submitted false documentation that the City
of..Detroit paid Petitioner just compensation in case 05-522129 CC. The City of Detroit
submitted null and void documents from the dismissed eminent domain action in which
the Wayne County Circuit Court Judge denied the City of Detroit’s motion to require the
return of money paid. The City of Detroit did not appeal the order denying return of
money paid in that case.
2 On June 19, 2018, Edith Woodberry filed Edith Woodberry’s Response to Order Setting Deadline by
Which the Woodberry and Mabin Claimants (Fifty-Sixth and Sixty Second) Must Take Certain Actions
Regarding Their Claims [Doc, No.12838]. The record shows that on the same day, June 19, 2018, the
Court issued a Notice of Deficient Pleading and that Edith Woodberry’s response was stricken from the
record as untimely filed.
The court failed to make sufficient specific findings of fact and conclusions of law pursuant to MCR 2.517.
Per MCR 2.517, a court trying a case without a jury must make special findings of fact and state its
conclusions of law thereon. A trial court must make findings of fact and conclusions of law which are
sufficient to allow a review in court to determine whether the findings of fact were against the great weight
of evidence, whether an abuse of discretion occurred or whether a clear legal error was made. Mumaw v
Mumaw, 124 Mich App 114, 333 NW2d 599 (1983).

-4-

The City of Detroit did not present any proof or documentation that the City of
Detroit paid any just compensation to Petitioner in case no, 05-522129 CC per the 2008
judgment.
Footnote #1 makes the point that even if the City of Detroit paid Petitioner the
Judgment amount, the 05-522129 CC just compensation award contained is only
approximately one third of the approximate $250,000 the City of Detroit paid the Fuller
Defendants’ for their one half interest in the Subject Property. By definition, the
05-522120 CC Judgment is not just compensation.
The Michigan eminent domain statute (Uniform Condemnation Procedures Act
MCL 213, et seq.) does not authorize the City of Detroit to apply money paid in a
dismissed eminent domain action to a new eminent domain case 05-522129 CC. The
effect of the dismissal made any just compensation payment in the dismissed eminent
domain action null and void. Further, the Circuit Court Judge in the dismissed case
expressly denied the City of Detroit’s motion to return money paid.
The bankruptcy court judge assigned to replace Judge Rhodes, unlawfully shifted
the City of Detroit’s statutory responsibility to go forward with the 05-522129 CC
eminent domain action to final Judgment to Petitioner and the co-defendants, in effect
improperly requiring and shifting to the Petitioner and co-defendants the City of Detroit’s
duty to prosecute the 05-522129 CC eminent domain case to completion. See MCL
213.52.
The Petitioner and co-defendants took action in compliance with the bankruptcy
court order. Nevertheless, the bankruptcy court entered orders disallowing Petitioner
and co-defendants’ claims for just compensation payment.

-7'

REASONS FOR GRANTING THE PETITION

1. It is against public policy and it is bad law to permit the City of Detroit to file
bankruptcy to bypass its constitutional duty to pay Petitioner just compensation.
2. Manifest injustice will occur if the City of Detroit is allowed to take and keep
Petitioner’s property without paying Petitioner just compensation. At a minimum, the
City of Detroit must be required to return the Subject Property to Petitioner.
3. The disallowance of Petitioner’s claim in the City of Detroit’s bankruptcy unjustly
enriches the City of Detroit to the Petitioner’s detriment.
4. Per the Michigan Uniform Condemnation Procedures Act (MCL 213.52), a bankruptcy
court cannot shift the City of Detroit’s obligation to proceed to final judgment in an
eminent domain action from the City of Detroit to the Petitioner.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

t
Date:

$ t. 2e>^\

-I<*

A

:

U.'

r

/

:

*.

K

